No.

In the Supreme Court of the United States
___________________

AMERICAN ATHLETIC CONFERENCE, THE ATLANTIC
COAST CONFERENCE, THE BIG TEN CONFERENCE,
INC., THE BIG 12 CONFERENCE, INC., CONFERENCE
USA, MID-AMERICAN CONFERENCE, MOUNTAIN WEST
CONFERENCE, PAC-12 CONFERENCE, SOUTHEASTERN
CONFERENCE, SUNBELT CONFERENCE, AND WESTERN
ATHLETIC CONFERENCE,
Petitioners,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
___________________

On Petition for a Writ of Certiorari to
the United States Court of Appeals for the
Ninth Circuit
___________________

PETITION FOR A WRIT OF CERTIORARI
___________________

BRITT M. MILLER
ANDREW J. PINCUS
ANDREW S. ROSENMAN
Counsel of Record
JED W. GLICKSTEIN
CHARLES A. ROTHFELD
Mayer Brown LLP
Mayer Brown LLP
71 South Wacker Dr.
1999 K Street, NW
Chicago, IL 60606
Washington, DC 20006
(312) 782-0600
(202) 263-3000
apincus@mayerbrown.com
Counsel for Petitioner The Big Ten Conference, Inc.
[Additional counsel on inside cover]

ROBERT W. FULLER, III
LAWRENCE C. MOORE, III
PEARLYNN G. HOUCK
ERIK R. ZIMMERMAN
Robinson, Bradshaw &
Hinson, P.A.
101 North Tryon St.,
Suite 1900
Charlotte, N.C. 28246
MARK SEIFERT
Seifert Law Firm
50 California St.,
Suite 1500
San Francisco, CA
94111

LEANE K. CAPPS
CAITLIN J. MORGAN
Polsinelli PC
2950 North Harwood
St., Suite 2100
Dallas, TX 75201
AMY D. FITTS
Polsinelli PC
900 West 48th Pl.,
Suite 900
Kansas City, MO 64112
Counsel for The Big 12
Conference, Inc. & Conference USA

BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
JENNIFER L. JONES
BENJAMIN C. BLOCK
SHAWN S. LEDINGHAM, JR.
Covington & Burling
Proskauer Rose LLP
LLP
2029
Century Park East,
One CityCenter
Suite 2400
850 Tenth St. N.W.
Washington, D.C. 20001 Los Angeles, CA 90067
Counsel for the American Counsel for Pac-12
Conference
Athletic Conference
Counsel for Southeastern
Conference

R. TODD HUNT
BENJAMIN G. CHOJNACKI
Walter Haverfield LLP
The Tower at Erieview
1301 East 9th St.,
Suite 3500
Cleveland, OH 44114
Counsel for Mid-American Conference
MERYL MACKLIN
Bryan Cave Leighton
Paisner LLP
Three Embarcadero
Center, 7th Floor
San Francisco, CA
94111
RICHARD YOUNG
BRENT E. RYCHENER
Bryan Cave Leighton
Paisner LLP
90 South Cascade Ave.,
Suite 1300
Colorado Springs, CO
80903
Counsel for Mountain
West Conference
JON BRADLEY
Bradley Devitt Haas &
Watkins, P.C
2201 Ford Street
Golden, CO 80401
Counsel for Western Athletic Conference

MARK A. CUNNINGHAM
Jones Walker LLP
201 St. Charles Ave.
50th Floor
New Orleans, LA 70170
Counsel for Sun Belt Conference
D. ERIK ALBRIGHT
GREGORY G. HOLLAND
Fox Rothschild LLP
230 North Elm St.,
Suite 1200
Greensboro, N.C. 27401
JONATHAN P. HEYL
Fox Rothschild LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
Counsel for Atlantic
Coast Conference

QUESTION PRESENTED
The National Collegiate Athletic Association
(NCAA) is a nonprofit association that sets the rules
governing college athletics, including the rules limiting the payments that colleges may make to studentathletes. As this Court has explained, “the NCAA
seeks to market a particular brand of [sports]—college
[sports]. The identification of this ‘product’ with an academic tradition differentiates college [sports] from
and makes it more popular than professional sports to
which it might otherwise be comparable,” and “[i]n order to preserve the character and quality of the ‘product,’ athletes must not be paid, must be required to
attend class, and the like.” NCAA v. Board of Regents
of Univ. of Okla., 468 U.S. 85, 101-102 (1984).
In this case, however, the district court held that
the NCAA student-athlete payment limits violate the
Sherman Act. It imposed a detailed injunction prescribing the types of payments that colleges must be
permitted to make to student-athletes, retained jurisdiction, and directed the parties to seek guidance from
the court before making certain future changes to
NCAA rules. The Ninth Circuit affirmed, holding that
the NCAA could have used less restrictive rules to
achieve its procompetitive goal.
The question presented is:
Whether the Sherman Act authorizes a court to
subject the product-defining rules of a joint venture to
full Rule of Reason review, and to hold those rules unlawful if, in the court’s view, they are not the least restrictive means that could have been used to accomplish their procompetitive goal.

ii
PARTIES TO THE PROCEEDINGS
Petitioners, defendants-appellants below, are
American Athletic Conference; Atlantic Coast Conference; The Big Ten Conference, Inc.; The Big 12 Conference, Inc.; Conference USA; Mid-American Conference; Mountain West Conference, Inc.; Pac-12 Conference; Southeastern Conference; Sun Belt Conference;
and Western Athletic Conference. The National Collegiate Athletic Association also was a defendant-appellant below.
Respondents, plaintiffs-appellees below, are class
representatives Shawne Alston; Don Banks; Duane
Bennett; John Bohannon; Barry Brunetti; India
Chaney; Chris Daven-port; Dax Dellenbach; Sharrif
Floyd; Kendall Gregory-McGhee; Justine Hartman;
Nigel Hayes; Ashley Holliday; Dalenta Jameral Stephens; Alec James; Afure Jemerigbe; Martin Jenkins;
Kenyata Johnson; Nicholas Kindler; Alex Lauricella;
Johnathan Moore; Kevin Perry; Anfornee Stewart;
Chris Stone; Kyle Theret; Michel’le Thomas; Kendall
Timmons; and William Tyndall.
CORPORATE DISCLOSURE STATEMENT
The American Athletic Conference is a D.C. notfor-profit corporation head-quartered in Irving, Texas.
It has no corporate parent, and no publicly held corporation owns 10 percent or more of its stock.
The Atlantic Coast Conference is a North Carolina
not-for-profit unincorporated association headquartered in Greensboro, North Carolina. It has no corporate parent, and no publicly held corporation owns 10
percent or more of its stock.
The Big Ten Conference, Inc. is a Delaware notfor-profit corporation with its principal place of business in Rosemont, Illinois. It has no corporate parent,

iii
and no publicly held corporation owns 10 percent or
more of its stock.
The Big 12 Conference, Inc. is a Delaware not-forprofit corporation with its principal place of business
in Irving, Texas. It has no corporate parent, and no
publicly held corporation owns 10 percent or more of
its stock.
Conference USA is an Illinois not-for-profit corporation with its principal place of business in Dallas,
Texas. It has no parent corporation, and no publicly
held corporation owns 10 percent or more of its stock.
The Mid-American Conference is an Ohio not-forprofit corporation headquartered in Cleveland, Ohio.
It has no corporate parent, and no publicly held corporation owns 10 percent or more of its stock.
The Mountain West Conference is a Colorado notfor-profit corporation headquartered in Colorado
Springs, Colorado. It has no corporate parent, and no
publicly held corporation owns 10 percent or more of
its stock.
The Pac-12 Conference is a California not-forprofit unincorporated association headquartered in
San Francisco, California. It has no corporate parent,
and no publicly held corporation owns 10 percent or
more of its stock.
The Southeastern Conference is an Alabama unincorporated not-for-profit association headquartered
in Birmingham, Alabama. It has no corporate parent,
and no publicly held corporation owns 10 percent or
more of its stock.
The Sun Belt Conference is a Louisiana not-forprofit corporation headquartered in New Orleans,
Louisiana. It has no corporate parent, and no publicly
held corporation owns 10 percent or more of its stock.

iv
The Western Athletic Conference is a Colorado
not-for-profit corporation headquartered in Englewood, Colorado. It has no corporate parent, and no
publicly held corporation owns 10 percent or more of
its stock.
RELATED PROCEEDINGS
United States District Court (N.D. Cal.):
1. House, et al. v. NCAA, et al., No. 4:20-cv-3919
(pending).
2. Oliver, et al. v. NCAA, et al., No. 4:20-cv-04527
(pending).
3. Jenkins et al. v. National Collegiate Athletic Association et al., No. 4:14-cv-2758 (dismissed).

v
TABLE OF CONTENTS

Page
QUESTION PRESENTED..........................................i
PARTIES TO THE PROCEEDINGS........................ ii
CORPORATE DISCLOSURE STATEMENT .......... ii
RELATED PROCEEDINGS ..................................... iv
PETITION FOR A WRIT OF CERTIORARI ............ 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY PROVISION INVOLVED................... 1
STATEMENT ............................................................. 1
A. The NCAA and college athletics ..................... 4
B. Amateurism and the NCAA’s eligibility
rules.................................................................. 5
C. The Ninth Circuit’s prior decision on
NCAA eligibility rules ..................................... 8
D. The district court’s decision ............................ 9
E. The Ninth Circuit’s decision.......................... 13
REASONS FOR GRANTING THE PETITION ...... 14
I. The Ninth Circuit’s decision conflicts with the
holdings of other courts of appeals and of this
Court. ................................................................... 15
A. The Ninth Circuit’s decision shifted the
burden of proof, effectively adopting a least
restrictive alternative standard and
departing from the rulings of other courts
of appeals and of this Court. ......................... 15

vi
B. The Ninth Circuit’s decision departs from
the holdings of this Court and other courts
of appeals that joint venture rules defining
a product are reviewed deferentially. ........... 20
II. The legal errors committed below will have
destructive and enormously important
national consequences. ....................................... 26
III.The Ninth Circuit’s decision is wrong. ............... 32
CONCLUSION ......................................................... 35

vii
TABLE OF AUTHORITIES

Page(s)
Cases
Agnew v. NCAA,
683 F.3d 328 (7th Cir. 2012) .................... 23, 24, 35
American Motor Inns, Inc. v. Holiday
Inns, Inc.,
521 F.2d 1230 (3d Cir. 1975) .............................. 18
American Needle, Inc. v. NFL,
560 U.S. 183 (2010) .............................................. 20
Arizona v. Maricopa County Med. Soc’y,
457 U.S. 332 (1982) .............................................. 31
Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007) .............................................. 28
In re Beltone Elecs. Corp.,
100 F.T.C. 68 (1982) ............................................. 19
Broadcast Music, Inc. v. CBS, Inc.,
441 U.S. 1 (1979) .................................................. 21
Bruce Drug, Inc. v. Hollister, Inc.,
688 F.2d 853 (1st Cir. 1984) ................................ 18
Deppe v. NCAA,
893 F.3d 498 (7th Cir. 2018) ........................ passim
Flegel v. Christian Hosp., Ne.-Nw.,
4 F.3d 682 (8th Cir. 1993) .................................... 19

viii
Law v. NCAA,
134 F.3d 1010 (10th Cir. 1998) ............................ 19
McCormack v. NCAA,
845 F.2d 1338 (5th Cir. 1988) ........................ 18, 25
Nat’l Football League v. N. Am. Soccer
League,
459 U.S. 1074 (1982) ............................................ 17
Nat’l Hockey League v. Plymouth
Whalers Hockey,
325 F.3d 712 (6th Cir. 2003) ................................ 19
Nat’l Soc’y of Prof’l Eng’rs v. United
States,
435 U.S. 679 (1978) .............................................. 32
NCAA v. Board of Regents of Univ. of
Okla., 468 U.S. 85 (1984) ............................. passim
O’Bannon v. NCAA,
802 F.3d 1049 (9th Cir. 2015) ...................... passim
Ohio v. Am. Express Co.,
138 S. Ct. 2274 (2018) .............................. 10, 16, 33
Race Tires America, Inc. v. Hoosier
Racing Tire Corp.,
614 F.3d 57 (3d Cir. 2010) ................................... 26
Rothery Storage & Van Co. v. Atlas Van
Lines, Inc.,
792 F.2d 210 (D.C. Cir. 1986) ........................ 18, 33
Smith v. NCAA,
139 F.3d 180 (3d Cir. 1998) ........................... 24, 25

ix
Texaco, Inc. v. Dagher,
547 U.S. 1 (2006) .................................................. 20
United States v. Arnold, Schwinn & Co.,
388 U.S. 365 (1967) .............................................. 17
Verizon Communications Inc. v. Law
Offices of Curtis V. Trinko, LLP,
540 U.S. 398 (2004) ................................................ 3
Statutes
15 U.S.C. § 1 ...................................................... passim
15 U.S.C. § 15 ............................................................ 29
15 U.S.C. § 22 ............................................................ 29
20 U.S.C. § 1087kk ...................................................... 7
28 U.S.C. § 1254(1) ...................................................... 1
Cal. Educ. Code § 67456............................................ 32
Fla. Stat. § 1006.74 ................................................... 32
Other Authorities
Philip Areeda & Herbert Hovenkamp,
Antitrust Law: An Analysis of Antitrust Principles and Their Application (4th ed. 2020 cum. supp.) ............................. 19
Philip Areeda & Herbert Hovenkamp,
11 Fundamentals of Antitrust Law
¶1913b (4th ed. 2020) .......................................... 31

x
Frank H. Easterbrook, The Limits of
Antitrust, 63 Tex. L. Rev. 1 (1984) ...................... 31
Health, Educ., Labor & Pensions,
Compensating College Athletes:
Examining the Potential Impact on
Athletes and Institutions (Sept. 15,
2020), https://tinyurl.com/yyqcfhub .................... 32
Herbert Hovenkamp, Antitrust
Balancing, 12 N.Y.U. J. L. & Bus.
369 (2016) ............................................................. 34
NCAA Board of Governors Federal and
State Legislation Working Group,
Final Report and Recommendations
(Apr. 17, 2020),
https://tinyurl.com/yxq8rtd9 ................................ 32
What Is The NCAA?, https://tinyurl.com/
y4kpswnl ............................................................ 4, 5

PETITION FOR A WRIT OF CERTIORARI
American Athletic Conference; Atlantic Coast
Conference; The Big Ten Conference, Inc.; The Big 12
Conference, Inc.; Conference USA; Mid-American
Conference; Mountain West Conference, Inc.; Pac-12
Conference; Southeastern Conference; Sun Belt Conference; and Western Athletic Conference respectfully
petition for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Ninth
Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a66a) is reported at 958 F.3d 1239. The relevant opinion of the district court (Pet. App. 103a-206a) is reported at 375 F. Supp. 3d 1058. The district court’s
permanent injunction (Pet. App. 207a-210a) is reported at 2019 WL 1593939.
JURISDICTION
The court of appeals entered judgment on May 18,
2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
STATUTORY PROVISION INVOLVED
Section 1 of the Sherman Act, 15 U.S.C. § 1, provides in relevant part: “Every contract, combination in
the form of trust or otherwise, or conspiracy, in restraint of trade or commerce among the several
States, or with foreign nations, is declared to be illegal.”
STATEMENT
The district court below held that NCAA rules
prohibiting colleges from paying student-athletes to
play are, in substantial part, inconsistent with the

2
Sherman Act. The court remedied that supposed violation by composing a detailed list of payments that
schools must be permitted to make to student-athletes, and by retaining jurisdiction to approve proposed future changes in the payment rules—seemingly in perpetuity. The Ninth Circuit affirmed that
decision, holding that, because the NCAA studentathlete payment rules could have been drawn in a
more permissive manner without eliminating college
athletics as a discrete “product,” the rules must be
drawn in that manner.
For several reasons, the Ninth Circuit’s decision
should not stand.
First, the decision below misunderstood the controlling Sherman Act principles, in a manner that departs from this Court’s holdings and solidifies an
acknowledged conflict in the circuits. The Ninth Circuit improperly shifted onto defendants the plaintiffs’
heavy burden to show the availability of a less restrictive alternative, effectively requiring a joint venture
to prove that its rules are the least restrictive ones
possible; this Court and other courts of appeals have
rejected that impossible standard as an invitation to
endless litigation. At the same time, the court below
departed from holdings of other circuits that, in
closely analogous circumstances, give the NCAA
much greater deference in the design of its “product”:
These courts have recognized that “most NCAA eligibility rules are entitled to [a] procompetitive presumption” and that “a full rule-of-reason analysis is unnecessary” to uphold such rules under the Sherman Act.
Deppe v. NCAA, 893 F.3d 498, 502, 503-504 (7th Cir.
2018).

3
Second, the Ninth Circuit’s ruling gives a single
judge ongoing, czar-like authority over college sports
nationwide. This is an inappropriate role for a court
to assume under any circumstance: This Court and
other courts of appeals have long warned against close
judicial management of ongoing enterprises under the
guise of an antitrust judgment. See, e.g., Verizon Communications Inc. v. Law Offices of Curtis V. Trinko,
LLP, 540 U.S. 398, 408 (2004) (antitrust courts are
“ill-suited” to “act as central planners”). The manner
in which the courts below overreached is especially
apparent in the current environment, where Congress
and many individual States—as well as the NCAA
and the affected schools themselves—are even now
deeply engaged in determining whether (and if so,
how) college athletes should receive compensation.
Resolution of that question is properly addressed
through the political process, not through distorted
application of the antitrust laws.
Third, the immediate practical consequences of
the decision below are immense, and pernicious. Even
as Congress and the States are considering the issue
of acceptable payments to student-athletes, the decision below will alter the practices of the more than one
thousand NCAA-member educational institutions
and the lives of hundreds of thousands of students.
The decision may fundamentally change college
sports, a pastime of consuming interest to millions of
people across the Nation. And it will trigger unending
litigation against, and likely impose enormous liability on, nonprofit institutions, even as they are suffering from the effects of the Covid-19 pandemic—a parade of new lawsuits that already has started. Review
by this Court therefore is warranted.

4
A. The NCAA and college athletics
As this Court has recognized, NCAA college athletics, like all sports leagues, is an endeavor “in which
horizontal restraints on competition are essential if
the product is to be available at all.” Board of Regents,
468 U.S. at 101. In particular, college sports is maintained as a discrete form of competition by the NCAA,
a nonprofit educational association whose membership includes more than one thousand public and private colleges and universities, and more than 100 nonprofit athletic conferences and other organizations.
See What Is The NCAA?, https://tinyurl.com/
y4kpswnl; Pet. App. 10a. Since it was formed “in 1905
in response to a public outcry concerning abuses in intercollegiate athletics” (Board of Regents, 468 U.S. at
121 (White, J., dissenting)), the NCAA “has adopted
and promulgated playing rules, standards of amateurism, standards for academic eligibility, regulations
concerning recruitment of athletes, and rules governing the size of athletic squads and coaching staffs.”
Board of Regents, 468 U.S. at 88 (majority opinion).
This Court has characterized “[w]hat the NCAA
and its member institutions market * * * [a]s competition itself—contests between competing institutions.” Board of Regents, 468 U.S. at 101. The Court
added that “this would be completely ineffective if
there were no rules on which the competitors agreed
to create and define the competition to be marketed.”
Ibid. Because “the NCAA seeks to market a particular
brand of [sports]—college [sports]”—“[t]he identification of this ‘product’ with an academic tradition differentiates college [sports] from and makes it more popular than professional sports to which it might otherwise be comparable[.]” Id. at 101-102. And, the Court
continued, “[i]n order to preserve the character and

5
quality of the ‘product,’ athletes must not be paid,
must be required to attend class, and the like.” Id. at
102.
Today, nearly half a million student-athletes participate in NCAA-administered athletics each year,
playing two dozen sports. What Is The NCAA?,
https://tinyurl.com/y4kpswnl. Although certain teams
at some schools generate large revenues, the vast majority are subsidized by their schools, with any available income from the higher-revenue sports used to
subsidize sports that are not self-sufficient. C.A. ER
154, 155 (Trial Tr. (Hatch)); C.A. ER 263-264 (JEX 17:
NCAA Research, Revenues and Expenses, 2004–
2016)). Meanwhile, the schools’ “primary mission” remains “educating [their] students” (C.A. ER 153-154)
(Trial Tr. (Hatch)), with intercollegiate athletics offered as “an important part of the educational experience.” C.A. ER 213 (Trial Tr. (Blank)). Or, as Justice
White put it 35 years ago, the NCAA “‘exist[s] primarily to enhance the contribution made by amateur athletic competition to the process of higher education.’”
Board of Regents, 468 U.S. at 122 (White, J., dissenting).
B. Amateurism and the NCAA’s eligibility
rules
From its inception, a defining feature of NCAA
sports has been amateurism, the principle that student-athletes are not professionals and “must not be
paid” to play. Board of Regents, 468 U.S. at 102; see
id. at 118 (NCAA rules “are justifiable means of fostering competition among amateur athletic teams”).
This no-pay amateurism principle has long been
thought central to “preserv[ing] the character and
quality of the [college sport] ‘product.’” Ibid.

6
In Board of Regents, the Court held that NCAA
limits on football television broadcasts were subject to
challenge under the Sherman Act. 468 U.S. at 113120. At the same time, however, the Court explained
in detail that “a certain degree of cooperation is necessary if the type of competition that [the NCAA] and
its member institutions seek to market is to be preserved.” Id. at 117. The Court continued:
It is reasonable to assume that most of the
regulatory controls of the NCAA are justifiable means of fostering competition among amateur athletic teams and therefore procompetitive because they enhance public interest in
intercollegiate athletics. The specific restraints on football telecasts that are challenged in this case do not, however, fit into the
same mold as do rules defining the conditions
of the contest, the eligibility of participants, or
the manner in which members of a joint enterprise shall share the responsibilities and the
benefits of the total venture.
Ibid.
Given this understanding, the NCAA consistently
has maintained a body of eligibility rules designed to
prohibit student-athletes from being paid for their
play, while allowing schools to reimburse student-athletes for their reasonable and necessary academic and
athletic expenses. See, e.g., C.A. ER 284-287 (JEX 24,
NCAA Bylaws), 290-295 (JEX 24, NCAA Bylaws),
1422-1440 (JEX 25, NCAA Bylaws); see also Pet. App.
11a (quoting NCAA ‘‘‘Amateurism Rule,’ which strips
student-athletes of eligibility for intercollegiate competition if they ‘[u]se[] [their] athletics skill (directly
or indirectly) for pay in any form in [their] sport,’”

7
with “‘[p]ay’’ * * * defined as the ‘receipt of funds,
awards or benefits not permitted by governing legislation’”). The rules also permit student-athletes to receive limited awards to recognize special academic or
athletic achievement. See C.A. ER 288-289, 296-297
(JEX 24, NCAA Bylaws).
The principal quantum of education expenses is
“cost of attendance” (COA), a term defined by federal
law and the measure used to determine the financial
assistance students may receive to attend school. 20
U.S.C. § 1087kk. COA includes tuition and fees (including “any [required] equipment, materials, or supplies”), room and board, books, a computer, transportation, and other “miscellaneous personal expenses.”
Id. § 1087ll. Each school independently determines
“the appropriate and reasonable amounts” for its students. C.A. ER 324 (JEX 1517, Federal Student Aid
Handbook); see also 20 U.S.C. § 1087kk.
NCAA rules permit student-athletes to receive financial aid up to COA, and also permit schools to “adjust[]” COA for student-athletes “on an individual basis.” C.A. ER 285 (JEX 24, NCAA Bylaws). Financial
aid may be provided through an athletic scholarship—
called a “grant-in-aid” (GIA)—other financial aid, or
both. C.A. ER 284, 286-287 (same). Schools may also
use specialized funds to cover student-athletes’ additional legitimate expenses. See C.A. ER 268-269 (JEX
21, 2018 Division I Revenue Distribution Plan), 284285, 294-295 (JEX 24, NCAA Bylaws). And studentathletes who demonstrate exceptional financial need
may receive Pell grants from the federal government.
C.A. ER 287.
Finally, NCAA rules allow schools to provide limited tokens of achievement to recognize exceptional

8
athletic performance by individual student-athletes or
teams. The value of these awards, which include trophies and plaques, ranges from $175 for a team’s
most-improved or most-valuable player to $1,500 for a
conference’s athlete (or scholar-athlete) of the year.
C.A. ER 288-289, 296-297 (JEX 24, NCAA Bylaws).
Additionally, schools may annually give a $10,000
Senior School Award for graduate school to two graduating student-athletes. C.A. ER 289 (JEX 24, NCAA
Bylaws). The limits are designed to ensure that
awards do not become vehicles for disguised pay-forplay. C.A. ER 170-171 (Trial Tr. (Lennon)).
C. The Ninth Circuit’s prior decision on
NCAA eligibility rules
In O’Bannon v. NCAA, 802 F.3d 1049 (9th Cir.
2015), cert. denied, 137 S. Ct. 277 (2016), a class of
former NCAA football and men’s basketball players
brought suit under the Sherman Act, challenging
NCAA rules that limit permissible payments to student-athletes for their names, images, and likenesses
(NILs). The O’Bannon district court, in what appears
to have been “the first [decision] by any federal court
to hold that any aspect of the NCAA’s amateurism
rules violate[s] the antitrust laws, let alone to mandate * * * that the NCAA change its practices” (id. at
1053), held that the NCAA acted unlawfully by (1) not
permitting schools to pay student-athletes full COA
(the prior rule had limited payments for certain living
expenses included in COA) and (2) not permitting colleges to make deferred cash payments to student-athletes of up to $5000 per year in school. See id. at 106061.
On appeal, the Ninth Circuit dismissed what it
termed this Court’s “long encomium to amateurism”

9
rules in Board of Regents as “impressive-sounding”
but “dicta.” 802 F.3d at 1063. The court of appeals
then upheld the O’Bannon district court’s ruling authorizing COA payments (id. at 1074-76),1 but set
aside the requirement that schools be permitted to
make deferred $5000 annual cash payments to student-athletes. Id. at 1076-79. As the Ninth Circuit
noted in reaching this latter conclusion, “not paying
student-athletes is precisely what makes them amateurs.” Id. at 1076.
D. The district court’s decision
While O’Bannon was still pending, individuals suing as representatives of several classes of NCAA Division I football and basketball players—classes that
largely overlap the O’Bannon class—filed a new antitrust action against petitioners (eleven collegiate conferences) and the NCAA. Plaintiffs maintained that
the NCAA student-athlete payment limits are an anticompetitive restraint of trade and sought to “dismantle the NCAA’s entire compensation framework.”
Pet. App. 17a. The cases were assigned to the same
district judge who presided over O’Bannon.
The district court purported to apply the Rule of
Reason’s three-step burden-shifting approach in assessing this claim, under which (1) the plaintiffs must
establish that the defendants restrained trade; (2) the
burden then shifts to the defendants to show that the

By the time the Ninth Circuit ruled, the NCAA itself had set
aside the bar on payment of COA, agreeing that “giving studentathletes scholarships up to their full costs of attendance would
not violate the NCAA’s principles of amateurism because all the
money given to students would be going to cover their ‘legitimate
costs’ to attend school.” 802 F.3d at 1075.
1

10
restraint had procompetitive effects; and (3) the burden then shifts back to the plaintiffs to demonstrate
that substantially less restrictive alternatives are
available that would be virtually as effective as the
challenged restraints at achieving those procompetitive effects. Pet. App. 115a-166a. See also Ohio v. Am.
Express Co., 138 S. Ct. 2274, 2284 (2018). Because the
court determined at the first step that the challenged
NCAA rules restrain trade (Pet. App. 113a-115a), a
conclusion that is not now in dispute, the focus at the
10-day trial was on the remaining two elements of the
test.
On these points, the district court first found that,
because the NCAA rules permit schools to make limited, defined payments of various sorts to college athletes, the NCAA’s traditional focus on amateurism
and not paying for play is illusory. Pet. App. 180a189a. But the court also determined that the preservation of some distinction between college and professional sports does have procompetitive value because
it maintains a discrete college sport product that is
valued by consumers. Adopting a test that had not
been proposed by either party, the court then held
that “the distinction between college and professional
sports arises because student-athletes do not receive
unlimited payments unrelated to education, akin to
salaries seen in professional sports leagues.” Id. at
147a-148a.2
The court of appeals subsequently opined that, “[i]n context, the
district court was using the term ‘unlimited pay’ as shorthand for
payments that run the risk of eroding consumer perception of
student-athletes as students—that is, cash payments unrelated
to education and akin to professional salaries.” Pet. App. 43a
n.16.
2

11
From this starting point, the court concluded that
“[r]ules that prevent unlimited payments such as
those observed in professional sports leagues * * * are
procompetitive when compared to having no such restrictions.” Pet. App. 148a. These permissible rules, in
the court’s view, are those that limit payments to student-athletes that are “unrelated to education” or that
cap payments at education-related costs. Id. at 157a.
The court then turned to the Rule of Reason’s
third burden-shifting step, holding that the current
NCAA rules “are more restrictive than necessary to
prevent demand-reducing unlimited compensation indistinguishable from that observed in professional
sports.” Pet. App. 155a. In the court’s view, the NCAA
payment limits could be modified by requiring use of
an alternative approach that would allow for larger
payments to student-athletes while still adequately
preserving college sports as a distinct product. Among
other things, the court sought to accomplish this goal
by:
(a) Invalidating most NCAA limits on payments
“related to education,” including those that the NCAA
“currently prohibits or limits in some fashion.” Pet.
App. 158a. These include payments for computers; scientific equipment; musical instruments and other
tangible items not currently included in the cost of attendance but “related to the pursuit of various academic studies”; post-eligibility scholarships to complete undergraduate or graduate degrees at any
school; scholarships to attend vocational school; expenses for pre- and post-eligibility tutoring; expenses
related to study abroad; and paid post-eligibility internships. Ibid.

12
(b) Requiring the NCAA to permit cash payments
to student-athletes in the form of graduation awards
or “academic incentives” with no minimum academic
achievement thresholds—while allowing the NCAA to
cap such payments at an annual amount not lower
than the “maximum amount of compensation that an
individual student-athlete could receive in an academic school year in participation, championship, or
special achievement awards (combined).” Pet. App.
159a.
As drawn by the court, this element of its ruling
requires the NCAA to permit schools to pay all student-athletes in the plaintiff classes annual cash “academic incentives” in an amount equal to the largest
sum that any student-athlete theoretically could be
paid in combined athletics participation, championship, and special achievement awards. The court evidently believed this amount to be $5600 (see Pet. App.
187a), although there is no evidence that any student
ever actually has received awards of these types with
a value anywhere close to that amount. Pet. App. 47a.3
(c) Allowing individual conferences “to set or
maintain limits on education-related benefits that the
NCAA will not be allowed to cap” and to “set limits on
academic awards and incentives.” Pet. App. 160a.

Respondents maintain that the aggregate amount is $15,000 or
more. See Pl. Response to Def. Mot. for Clarification of Permanent Injunction, In re Nat’l Collegiate Athletic Ass’n Grant-in-Aid
Cap Antitrust Litig., No. 4:14-md-02541-CW (N.D. Cal. Oct. 6,
2020), Dkt. 1305. As noted below (at page 27), that question is
now back before the district court on defendants’ motion for clarification.
3

13
The court incorporated these limits in a permanent injunction. Pet. App. 209a. In so doing, it provided that its list of permissible compensation and
benefits “related to education” may be amended on the
motion of any party, and that the NCAA may adopt a
definition of benefits “related to education”—but only
with the court’s permission. Id. at 210a.
E. The Ninth Circuit’s decision
The Ninth Circuit affirmed. Pet. App. 1a-66a.4 Insofar as is relevant here, the court began by observing
that “the NCAA bears a ‘heavy burden’ of ‘competitively justify[ing]’ its undisputed ‘deviation from the
operations of a free market.’” Id. at 36a-37a (quoting
Board of Regents, 468 U.S. at 113). From there, the
court of appeals concluded that the district court correctly conducted a detailed factual analysis of whether
the NCAA’s eligibility rules have a “demand-preserving effect.” Id. at 38a. And as it had in O’Bannon, the
Ninth Circuit dismissed this Court’s “discussion of
amateurism [in Board of Regents as] ‘dicta.’” Id. at
39a-40a.
At the second step of the Rule of Reason test, the
court of appeals accepted the district court’s conclusion “that the NCAA ‘sufficiently show[ed] a procompetitive effect of some aspects of the challenged compensation scheme,’ but not all.” Pet. App. 42a (emphasis omitted). “In short,” the Ninth Circuit concluded,
“NCAA compensation limits preserve demand to the
extent they prevent unlimited cash payments akin to

The Ninth Circuit rejected the argument that principles of res
judicata and stare decisis flowing from its prior holding in O’Bannon dictated a ruling for defendants. Pet. App. 28a-35a. Those
issues are not presented here.
4

14
professional salaries, but not insofar as they restrict
certain education-related benefits.” Id. at 42a-43a.
Turning to the third step of the Rule of Reason inquiry, the Ninth Circuit then held that “[t]he district
court reasonably concluded that uncapping certain education-related benefits would preserve consumer demand for college athletics just as well as the challenged rules do.” Pet. App. 44a. In the court of appeals’
view, “‘[s]uch benefits are easily distinguishable from
professional salaries, as they are ‘‘connect[ed] to education’; ‘their value is inherently limited to their actual costs’; and ‘they can be provided in kind, not in
cash.’” Ibid.
In particular, the court found it crucial that “the
NCAA presented no evidence that demand will suffer
if schools are free to reimburse education-related expenses of inherently limited value.” Pet. App. 45a. The
court of appeals also opined that academic achievement awards up to the $5600 annual payments approved by the district court would not affect consumer
demand. Id. at 48a. Accordingly, the Ninth Circuit approved the district court’s rewrite of the NCAA rules
so that, in the appellate court’s view, the judge-devised standards would allow for payments that “would
preserve consumer demand for college athletics just
as well as the challenged rules do.” Id. at 44a.
REASONS FOR GRANTING THE PETITION
The Ninth Circuit’s decision will have wide-ranging and destructive effects. It conflicts with the decisions of other courts of appeals. It distorts antitrust
law. It damages college athletics. And it gives a federal court a wholly inappropriate supervisory role
over the activities of a nationwide joint venture. This
Court should review, and set aside, that decision.

15
I.

The Ninth Circuit’s decision conflicts with the
holdings of other courts of appeals and of this
Court.

The Ninth Circuit’s ruling creates two conflicts
with the holdings of other courts of appeals and of this
Court. In its practical operation, the Ninth Circuit’s
standard requires a joint venture to operate with an
impossible level of precision, on pain of antitrust liability if a reviewing court finds that the defendants’
rules could have been made marginally more permissive—an approach that has been rejected by other
courts. At the same time, the court below refused to
treat NCAA eligibility rules as presumptively procompetitive, departing from the Rule of Reason analysis
used by other courts of appeals and expressly rejecting
the contrary approach of the Seventh Circuit. This
Court should resolve those conflicts, which derive in
significant part from disagreement about the meaning
of the Court’s decisions.
A. The Ninth Circuit’s decision shifted the
burden of proof, effectively adopting a
least restrictive alternative standard and
departing from the rulings of other courts
of appeals and of this Court.
At the outset, the Ninth Circuit erred by effectively requiring defendants to prove that they had
adopted the least restrictive alternative that would
preserve college sports, an approach that departs from
principles announced by this Court and other courts
of appeals. Once it is found that a related body of restrictive organizational rules have significant procompetitive effects because they are essential if a desirable product is to be marketed at all (as unquestionably
is true of the NCAA amateurism rules), judges should
not be empowered to rewrite those rules to make them

16
marginally less restrictive, or—what is the same
thing in practice—to require that the rules be the
least restrictive ones possible. The Ninth Circuit’s
contrary conclusion is wrong.
1. As noted above, the courts below used the Rule
of Reason’s “three-step, burden-shifting framework.”
Am. Express Co., 138 S. Ct. at 2284. In the circumstances here, there is no doubt that, at the second
step, defendants demonstrated a “procompetitive rationale” for their amateurism rules. Ibid. This Court
explained in Board of Regents that preventing pay-forplay distinguishes college athletes from their professional counterparts in a manner that is desired by
consumers, and the Ninth Circuit itself recognized in
this case that it is procompetitive to preserve a discrete college sport product that is characterized by
limits on student compensation—albeit only after that
court embraced what it called a “narrower conception
of amateurism.” Pet. App. 40a.
Despite concluding that the NCAA’s amateurism
rules serve legitimate procompetitive interests, however, the Ninth Circuit placed the burden on defendants at the second step of the Rule of Reason inquiry
to prove that “each type of challenged rule” (Pet. App.
42a) is essential to differentiate college from professional sports. The Ninth Circuit then held that a host
of adjustments to the NCAA’s rules would be “virtually as effective” as the current rules: (a) “uncapping
certain education-related benefits,” including not only
“computers, science equipment, and musical instruments” but also “post-eligibility scholarships,” “studyabroad expenses,” and “paid post-eligibility internships”; (b) permitting schools to make academic or
graduation payments with no minimum standards of

17
academic achievement at least up to the maximum
theoretical amount a single student-athlete could receive in athletic participation awards; and (c) permitting individual conferences to set limits on educationrelated benefits. Pet. App. 25a-26a.
The inevitable consequence of this approach is a
“least restrictive alternative” standard. If antitrust
defendants must prove that each element of their restrictive rules is as procompetitive as can be, all that
will be left, once the rules that fail to make the grade
are rejected, will be those regarded by the court as
strictly necessary—that is, the least restrictive rules
needed to achieve the procompetitive goal. In essence,
the Ninth Circuit required defendants to demonstrate
not that the NCAA amateurism rules reasonably promote a distinction between college and professional
sports, but that every restrictive element of those
rules is necessary to achieve the procompetitive benefits of amateurism.
2. As then-Justice Rehnquist long ago recognized,
the antitrust laws “impose a standard of reasonableness, not a standard of absolute necessity.” Nat’l Football League v. N. Am. Soccer League, 459 U.S. 1074,
1079 (1982) (dissenting from denial of certiorari). See
United States v. Arnold, Schwinn & Co., 388 U.S. 365,
380 (1967) (restraint need only be “reasonably necessary” to meet competitive purpose). Unsurprisingly,
then, the Ninth Circuit’s mode of analysis conflicts
with the approach of other circuits.
The Third Circuit, for example, in one of the leading decisions on the point, held that “[i]n a rule of reason case, the test is not whether the defendant deployed the least restrictive alternative” but “whether

18
the restriction actually implemented is ‘fairly necessary’” to achieve the procompetitive objective. American Motor Inns, Inc. v. Holiday Inns, Inc., 521 F.2d
1230, 1248 (3d Cir. 1975). Similarly, the First Circuit
held that a business is “not required to adopt the least
restrictive means of stopping [a competitor] from selling abroad, but merely means reasonably suited to
that purpose.” Bruce Drug, Inc. v. Hollister, Inc., 688
F.2d 853, 860 (1st Cir. 1984). The Fifth Circuit, in this
very context, rejected an antitrust challenge to NCAA
eligibility rules because those rules “reasonably further [the NCAA’s] goal.” McCormack v. NCAA, 845
F.2d 1338, 1345 (5th Cir. 1988).
And Judge Bork, writing for the D.C. Circuit, explained that, when a defendant imposes restraints
that are “reasonably necessary to the business it is authorized to conduct,” courts are not to “calibrate degrees of reasonable necessity.” Rothery Storage & Van
Co. v. Atlas Van Lines, Inc., 792 F.2d 210, 227 (D.C.
Cir. 1986). “Once it is clear that restraints can only be
intended to enhance efficiency rather than to restrict
output, the degree of restraint is a matter of business
rather than legal judgment.” Id. at 229 n.11.
These decisions are consistent with the broad consensus among courts and commentators on how to assess, at the third step of the Rule of Reason inquiry,
whether there is a less restrictive alternative to the
challenged rules. In these circuits, antitrust plaintiffs
cannot prevail simply by showing that the defendants
could have achieved their permitted goals by using a
different restraint with a marginally less restrictive
impact. Rather, the plaintiffs must show that “any legitimate objectives can be achieved in a substantially

19
less restrictive manner.” Nat’l Hockey League v. Plymouth Whalers Hockey, 325 F.3d 712, 719 (6th Cir.
2003) (emphasis added).5
After all, “one can frequently conceive of a less restrictive approach. Yet, to require the very least restrictive choice might interfere with the legitimate objectives at issue without, at the margin, adding that
much to competition.” Philip Areeda & Herbert
Hovenkamp, Antitrust Law: An Analysis of Antitrust
Principles and Their Application ¶ 1505b (4th ed.
2020 cum. supp.). See also In re Beltone Elecs. Corp.,
100 F.T.C. 68, 95 (1982) (“[a] comparison of alternatives may be useful in particular cases, but the emphasis appropriately belongs on the overall reasonableness of the challenged restraint, not whether some
hypothetically less restrictive scheme could be devised”).
Other courts therefore would reject the Ninth Circuit’s result here: They would overturn the NCAA’s
rules only if plaintiffs demonstrated that the NCAA’s
differentiated product could be achieved with substantially reduced restrictions. The Ninth Circuit, in
contrast, shifted the burden and applied the wrong
standard, requiring defendants to prove that every element of the NCAA rules is necessary to achieve the
rules’ procompetitive objective.

5

See, e.g., Law v. NCAA, 134 F.3d 1010, 1019 (10th Cir. 1998)
(plaintiff must prove “the challenged conduct is not reasonably
necessary to achieve the legitimate objectives”); Flegel v. Christian Hosp., Ne.-Nw., 4 F.3d 682, 688 (8th Cir. 1993) (similar).

20
B. The Ninth Circuit’s decision departs from
the holdings of this Court and other courts
of appeals that joint venture rules defining
a product are reviewed deferentially.
In addition, the Ninth Circuit’s approach exacerbates an acknowledged conflict in the circuits on a recurring issue of great practical importance: the level
of scrutiny that is appropriate when a joint venture’s
rules in general, and the NCAA’s rules in particular,
are challenged under the Sherman Act.
1. This Court has recognized that, when joint action is necessary if a product is to be marketed at all,
“the agreement is likely to survive the Rule of Reason.” American Needle, Inc. v. NFL, 560 U.S. 183, 203
(2010). Thus, the Court has observed that, “depending
upon the concerted activity in question, the Rule of
Reason may not require a detailed analysis; it ‘can
sometimes be applied in the twinkling of an eye.’”
Ibid. (quoting Board of Regents, 468 U.S. at 110 n.39).
In the joint venture context, this “twinkling of an eye”
standard reinforces the courts’ hostility to the form of
judicial second-guessing inherent in a least-restrictive
alternative requirement. The impropriety of determining whether already reasonable rules could be
made marginally less restrictive is an important reason that “detailed analysis” of such rules is unnecessary. See Texaco, Inc. v. Dagher, 547 U.S. 1, 7 (2006)
(collaborations have more leeway to impose restraints
that are “ancillary to the legitimate and competitive
purposes of the business association”); Broadcast Music, Inc. v. CBS, Inc. (BMI), 441 U.S. 1, 23 (1979)
(“[j]oint ventures and other cooperative arrangements” are “not usually unlawful * * * where the
agreement * * * is necessary to market the product at
all”).

21
Board of Regents adds significantly to the
strength of this principle, supporting the conclusion
that judicial over-involvement in real-world decisions
would be particularly harmful in the context of college
athletics because the college sport “product” must be
defined by joint action. The Court there recognized
that “the integrity of the ‘product’ cannot be preserved
except by mutual agreement[.]” 468 U.S. at 102.
“Thus, the NCAA plays a vital role in enabling college
[sports] to preserve its character, and as a result enables a product to be marketed which might otherwise
be unavailable.” Ibid. That is the paradigm of the type
of agreement that is “not usually unlawful” because
the producers of the product must cooperate. BMI, 441
U.S. at 23.
In this setting, where the jointly devised restrictions define the product, the Court added: “It is
reasonable to assume that most of the regulatory controls of the NCAA are justifiable means of fostering
competition among amateur athletic teams and therefore procompetitive because they enhance public interest in intercollegiate athletics.” 468 U.S. at 117.
And it concluded with the observation that “[t]he
NCAA plays a critical role in the maintenance of a
revered tradition of amateurism in college sports.
There can be no question but that it needs ample latitude to play that role, or that the preservation of the
student-athlete in higher education adds richness and
diversity to intercollegiate athletics and is entirely
consistent with the goals of the Sherman Act.” Id. at
120.
The Ninth Circuit acknowledged in its decision below that Board of Regents accepted the NCAA’s definition of “amateurism to exclude payment for athletic

22
performance.” Pet. App. 39a-40a. But the court of appeals opined that Board of Regents does not grant
“perpetual blanket approval for the NCAA’s compensation rules,” and dismissed Board of Regents’ “discussion of amateurism [as] ‘dicta.’” Id. at 15a, 40a. The
court of appeals thus doubled down on its prior dismissal of Board of Regents in O’Bannon.
In fact, however, this Court’s elaborate discussion
of amateurism in Board of Regents was a key element
of its explanation why NCAA rules on television
broadcasts—which lack the essential character of the
eligibility rules—were open to antitrust challenge; the
amateurism discussion therefore was not dicta. And
in any event, the Board of Regents amateurism analysis was lengthy and well-considered, and was embraced by Justices White and Rehnquist in their
Board of Regents dissent. See 468 U.S. at 101-103, 117
(majority opinion); id. at 121-23 (White, J., dissenting). In such circumstances, the court of appeals’ cavalier dismissal of what it derisively labeled this
Court’s “encomium to amateurism” was inappropriate. If that discussion is to be set aside, this Court,
and not the Ninth Circuit, should be the one to take
the step.
2. That is especially so because other courts of appeals have read Board of Regents quite differently
from the Ninth Circuit: Its decision contributes to a
conflict on the proper legal standard to apply when resolving challenges to NCAA eligibility rules. That division stems from disagreement regarding this
Court’s decision in Board of Regents and will lead to
nationally applicable NCAA rules being treated differently in different parts of the country—despite the
fact that a national sports association cannot operate

23
effectively without uniform standards applicable nationwide. That disarray can be resolved only by this
Court’s review.
Most notably, other courts of appeals have taken
a very different approach than the Ninth Circuit in
addressing challenges to NCAA eligibility rules. Although the Ninth Circuit in this case purported to disclaim judicial micromanagement of the NCAA (Pet.
App. 139a-140), it largely dismissed Board of Regents’
endorsement of the amateurism principle and (like
the district court) engaged in a close review of the record in search of support for the procompetitive value
of particular NCAA compensation limits, looking to
“demand analyses, survey evidence, and NCAA testimony.” See id. at 38a-39a; 140a-143a. Other courts,
however, expressly have taken a very different tack,
finding that NCAA eligibility rules should be upheld
without detailed factual inquiry.
a. The Seventh Circuit, in Deppe v. NCAA, 893
F.3d 498 (7th Cir. 2018), recently upheld the NCAA’s
year-in-residence eligibility rule. Pointing to Board of
Regents, the court declared that the “‘first—and possibly only—question to be answered when NCAA bylaws are challenged is whether the NCAA regulations
at issue are of the type that have been blessed by the
Supreme Court [in Board of Regents], making them
presumptively procompetitive.’” Id. at 501 (quoting
Agnew v. NCAA, 683 F.3d 328, 341 (7th Cir. 2012)).
The Seventh Circuit added that “an NCAA bylaw is
presumptively procompetitive when it is clearly
meant to help maintain the revered tradition of amateurism in college sports or the preservation of the
student-athlete in higher education.” Ibid. (citations
and internal quotation marks omitted). Thus, “most

24
NCAA eligibility rules are entitled to the procompetitive presumption announced in Board of Regents because they define what it means to be a student-athlete and thus preserve the tradition and amateur
character of college athletics.” Id. at 502.
Accordingly, the court affirmed dismissal of the
suit on the pleadings, with no specific evidentiary
showing that the year-in-residence rule was necessary
to preserve consumer interest in college sport. This
approach is settled in the Seventh Circuit; Deppe
faithfully applied the standard previously articulated
in Agnew. See Agnew, 683 F.3d at 343 n.7 (question is
“whether a rule is, on its face, supportive of the ‘no
payment’ and ‘student-athlete’ models, not whether
‘no payment’ rules are themselves procompetitive—
under Board of Regents, they clearly are”).
This case therefore would have come out differently if decided by the Seventh Circuit: Limits on payments to student-athletes, even more than the yearin-residence rule upheld in Deppe, are meant to preserve “the tradition and amateur character of college
athletics.” There is no doubt about the existence of
this conflict: In O’Bannon, the Ninth Circuit expressly
recognized the disagreement, refusing to adopt the
Seventh Circuit’s “Agnew presumption” and
“doubt[ing] that was the [Supreme] Court’s intent.”
802 F.3d at 1064.
b. Similarly, in Smith v. NCAA, 139 F.3d 180, 186187 (3d Cir. 1998), vacated on other grounds, 525 U.S.
459, 464 n.2 (1999), the Third Circuit, in an alternative holding, upheld NCAA limits on post-graduate eligibility. Also relying on Board of Regents, the court
did not look to specific evidence supporting the procompetitive value of the rule; instead, it presumed

25
that, “in general, the NCAA’s eligibility rules allow for
the survival of the product, amateur sports, and allow
for an even playing field. * * * Likewise, the bylaw at
issue here is a reasonable restraint which furthers the
NCAA’s goal of fair competition and the survival of intercollegiate athletics and is thus procompetitive.” Id.
at 187. After reciting a number of policies that could
be furthered by the rule, the court concluded: “[W]e
think that the bylaw so clearly survives a rule of reason analysis that we do not hesitate upholding it by
affirming an order granting a motion to dismiss
Smith’s antitrust count for failure to state a claim on
which relief can be granted.” Ibid.
c. In McCormack v. NCAA, 845 F.2d 1338 (5th Cir.
1988), the Fifth Circuit upheld penalties that the
NCAA imposed on Southern Methodist University for
exceeding compensation limits. Also invoking Board
of Regents, the court concluded that it need not examine the details of the particular rules and payments
involved. Instead, it held: “That the NCAA has not distilled amateurism to its purest form does not mean its
attempts to maintain a mixture containing some amateur elements are unreasonable. We therefore conclude that the plaintiffs cannot prove any set of facts
that would carry their antitrust claim and that the
motion to dismiss was properly granted.” Id. at 1345
(emphasis added).
d. Moreover, although those decisions are the
ones most directly on point here, courts addressing
challenges to sports league rules outside the college
setting also “have generally accorded sports organizations a certain degree of deference and freedom to act
in similar circumstances,” so long as the organization
“offers” a “justification” for its rules that is not “in bad

26
faith or * * * otherwise nonsensical.” Race Tires America, Inc. v. Hoosier Racing Tire Corp., 614 F.3d 57, 80,
81 (3d Cir. 2010). These courts have recognized that
sports sanctioning bodies and similar entities “deserve a bright-line rule to follow so they can avoid potential antitrust liability as well as time-consuming
and expensive antitrust litigation,” and that, “[c]ontrary to the pro-competitive purposes of antitrust law,
this [liability and litigation] expense may have a very
real anti-competitive effect.” Id. at 80. “[S]ports-related organizations should have the right to determine for themselves the * * * rules that they believe
best advance their respective sport * * *, without undue and costly interference on the part of courts and
juries.” Id. at 83.
In sum, other courts of appeals have used a very
different analysis in addressing challenges to NCAA
eligibility rules than did the Ninth Circuit in this
case—and these differing approaches led to different
results. These differences follow in substantial part
from divergent understandings of this Court’s decision in Board of Regents. This Court should address
that disagreement so as to settle the meaning of its
own prior ruling.
II. The legal errors committed below will have destructive and enormously important national
consequences.
The need for review is especially acute because the
issues in this case have significant practical importance—for educational institutions, college athletics, and joint ventures generally. The district court’s
injunction will prompt fundamental changes in the
nature of college sports. The Ninth Circuit’s decision
affirming that injunction makes the district court the

27
long-term supervisor of college athletics as conducted
across the Nation. That holding also empowers antitrust courts to become policymakers in this area, even
as Congress and the States are deciding whether to
exercise supervision over the rules governing college
sports. And the decisions below necessarily will lead
to an avalanche of litigation, imposing significant
costs on already-stretched educational institutions.
Moreover, the significance of the Ninth Circuit’s decision transcends college sports, endorsing an antitrust
standard that puts at risk many legitimate and procompetitive joint ventures.
First, under the decisions below, the district
court’s supervision of the rules it has imposed on college sports will be ongoing and never-ending. The
Ninth Circuit’s holding places a single district court in
continuing charge of college athletics nationwide.
Every rule change affecting eligibility will produce a
court fight; the court’s approval must be sought if the
NCAA seeks to modify the court’s definition of “related to education,” and either side may seek an order
modifying the injunction. This prospect is not theoretical; the defendants already have been forced to seek
clarification of the annual amount that the court believes schools must be permitted to pay all studentathletes in the plaintiff classes in graduation or “academic achievement” cash awards, in a proceeding
where plaintiffs insist that amount to be at least
$15,000. See note 3, supra.
Second, and similarly, the Ninth Circuit’s holding
invites an unending stream of litigation challenging
NCAA amateurism rules. That will be very costly
simply in terms of litigation expense—the Court repeatedly has noted the extremely burdensome nature

28
of antitrust lawsuits (see, e.g., Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 558-59 (2007))—and could involve significant damages claims as well.
Prior to the Ninth Circuit’s decision in O’Bannon,
such antitrust suits against the NCAA uniformly had
been rejected. See page 8, supra. But the danger of
strike-suit litigation is greatly exacerbated by a Ninth
Circuit ruling that can be expected to encourage additional such challenges. This prospect also is not theoretical; just weeks after the decision below, national
classes of student-athletes brought suit seeking treble
damages from the NCAA and some conferences based
on antitrust claims that are substantially identical to
those advanced in this case and in O’Bannon. See
Class Action Complaint, House v. NCAA, No. 20-cv3919 (N.D. Cal. June 15, 2020), ECF No. 1. The judge
who decided both this case and O’Bannon then
deemed the new suit a related case and assigned it to
herself. Related Case Order, House (June 23, 2020),
ECF No. 15. Indeed, in its decision below, the Ninth
Circuit specifically noted, with evident approval, the
possibility of “future plaintiffs pursuing essentially
the same claim again and again” against the defendants here. Pet. App. 33a n.13.
Third, the Ninth Circuit’s approach turns the
NCAA’s authority to design its product into a one-way
ratchet. Any change (or even public consideration of
change) will lead to (1) claims for damages for the period prior to the change on the theory that the prior
rules violated the Sherman Act: the change will be
said to show that those rules had not been necessary
to preserve consumer demand; and (2) challenges to
other rules on the ground that the change shows that
they are no longer necessary and therefore violate the

29
antitrust laws. And every judicial modification of the
rules that increases permissible cash payments to student-athletes will inevitably be followed by a class action seeking hundreds of millions of dollars in damages—as occurred in the now-settled portion of this
action, when defendants paid over $200 million based
on the modest increase in scholarship limits implemented during the O’Bannon case. Thus, the Ninth
Circuit’s approach will, paradoxically, tend to freeze
existing student-athlete compensation limits in place,
discouraging innovation and loosening of the standards.
Fourth, the rules governing a national institution
like the NCAA, whose members compete for recruits
on a national basis and compete on the field for national championships, must be nationally uniform.
That reality calls for this Court’s review. Insofar as
the circuits use different standards in assessing challenges to NCAA eligibility rules—as they now expressly do—inconsistent holdings regarding the validity of those rules in different parts of the country are
inevitable. Alternatively, plaintiffs’ lawyers will invoke the antitrust laws’ liberal venue provisions to
bring all future suits involving nationwide classes of
student-athletes in the Ninth Circuit (see 15 U.S.C.
§§ 15, 22), where they will be governed by the standard announced in this case. The last word on this important subject should be spoken by this Court, rather
than the Ninth Circuit.
And that is especially so because this case arises
in a factual setting that itself is important and of great
popular interest. College athletics is a significant
American institution, the rules of which directly affect
hundreds of thousands of college athletes and more

30
than a thousand NCAA-member educational institutions, and are of intense interest to untold millions of
additional people across the Nation. In Board of Regents, the Court thus described amateur college athletics as “an important American tradition” (468 U.S.
at 101 n.23) that is “revered.” Id. at 120. The standards used to assess the legality of the rules governing
that tradition should be clear and settled.
Fifth, the decisions below will change the nature
of college sports in very significant ways. The injunction in this case provides, for example, that schools
must be permitted to offer student-athletes paid internships, with no limits on pay. This means that paid
post-eligibility internships, uncapped in amount, may
now be given by boosters to student-athletes attending their favored school—boosters who understand
the effect that a pattern of such internships will have
on recruiting.
And so long as NCAA rules permit athletic participation awards at the current level, the injunction requires that schools be permitted to make annual “academic achievement” cash payments of at least $5600
to every student-athlete in the affected classes who
meets minimum NCAA academic eligibility standards—which is to say, to every student who is eligible
to play. This is a naked regime of pay-for-play, resting
solely on the ipse dixit of the courts below that the
maximum value of plaques, trophies, and other
awards presented to a few students for the most exceptional performance will be identical in their effects
to much larger awards that are made available to all
students regardless of their performance. Given the
prior recognition that, “[i]n order to preserve the character and quality of the ‘product,’ [college] athletes

31
must not be paid” (Board of Regents, 468 U.S. at 102),
a change of this magnitude should be considered by
this Court.
Sixth, and more broadly, allowing the sort of challenge endorsed by the Ninth Circuit here would permit plaintiffs to contest individual parts of any package of related restraints that could succeed equally
well if made marginally less restrictive, allowing targeted antitrust suits directed at small parts of many
large enterprises. Although the focus here necessarily
is on the NCAA, the antitrust rules at issue have important implications for all business joint ventures.
The concern that plaintiffs will embrace the Ninth
Circuit’s approach by seeking to chip away at joint
venture rules is not unrealistic; after all, a “skilled
lawyer would have little difficulty imagining possible
less restrictive alternatives to most joint arrangements.” Philip Areeda & Herbert Hovenkamp, 11
Fundamentals of Antitrust Law ¶1913b (4th ed. 2020).
And as this Court itself has recognized, federal
judges “often lack the expert understanding of industrial market structures and behavior to determine
with any confidence a practice’s effect on competition.”
Arizona v. Maricopa County Med. Soc’y, 457 U.S. 332,
343 (1982); see also Frank H. Easterbrook, The Limits
of Antitrust, 63 Tex. L. Rev. 1, 8-9 (1984) (“[I]t is impossible to determine the difference in efficiency between a known practice and some hypothetical alternative.”). A system in which district judges act as central planners reviewing and revising business judgments after the fact therefore will discourage many
kinds of useful cooperative decision-making and undermine the purposes the antitrust laws are meant to
serve.

32
Finally, we recognize that there currently is an intense policy debate ongoing about the claimed exploitation of student-athletes and the possible liberalization of the NCAA’s NIL rules. See, e.g., NCAA Board
of Governors Federal and State Legislation Working
Group, Final Report and Recommendations (Apr. 17,
2020), https://tinyurl.com/yxq8rtd9. But these policy
questions are not the subject of the antitrust laws,
which focus narrowly on competition and take no account of broader questions of fairness, or of educational and athletic policy. See Nat’l Soc’y of Prof’l
Eng’rs v. United States, 435 U.S. 679, 692 (1978).
Indeed, Congress is actively considering whether
and, if so, how to reform college athletics6; some States
have enacted laws in this area and other States are
considering legislation7; and the NCAA is itself addressing these questions. The Ninth Circuit’s expansive view of antitrust authority—and the district
court’s continuing control over NCAA eligibility
rules—will only interfere with that process. The future structure of college sports is appropriately resolved by policymakers, not antitrust courts.
III. The Ninth Circuit’s decision is wrong.
The decision below does not only confuse the law
and create significant practical difficulties; for reasons already touched upon, it also is wrong, making
errors that will undermine key purposes of the antitrust laws.
See U.S. Sen. Comm. on Health, Educ., Labor & Pensions, Compensating College Athletes: Examining the Potential Impact on
Athletes and Institutions (Sept. 15, 2020), https://tinyurl.com/yyqcfhub.

6

See, e.g., Cal. S.B. 206 (Sept. 30, 2019) and Cal. Educ. Code
§ 67456; Fla. S.B. 646 (June 12, 2020), Fla. Stat. § 1006.74.
7

33
1. As we have explained, once antitrust plaintiffs
show that restraints have a substantial anticompetitive effect, it becomes the defendants’ burden to come
forward with a “procompetitive rationale” for the restraints; if that is done, the burden shifts back to the
plaintiffs to demonstrate that any procompetitive benefits can be “reasonably achieved through less anticompetitive means.” Am. Express Co., 138 S. Ct. at
2284. Here, the courts below acknowledged that defendants did establish a procompetitive rationale for
rules that distinguish college from professional sports.
Pet. App. 15a-16a, 20a-24a. They could hardly have
found otherwise. This Court expressly reached that
conclusion in Board of Regents, and other courts, most
recently the Seventh Circuit, have held that NCAA eligibility rules “are entitled to the procompetitive presumption announced in Board of Regents because they
define what it means to be a student-athlete and thus
preserve the tradition and amateur character of college athletics.” Deppe, 893 F.3d at 502.
And once it is determined that the defendants’
joint action is “reasonably necessary” to create a desirable product (Rothery Storage & Van Co., 792 F.2d
at 228), the Sherman Act does not empower courts to
find that plaintiffs prevail at the third step of the Rule
of Reason inquiry simply by concluding that the lines
could have been drawn elsewhere. If that result were
permissible, as Prof. Hovenkamp and other leading
antitrust scholars argued as amici supporting the
NCAA before the Ninth Circuit in O’Bannon, “restraints reasonably necessary to achieving valid business objectives could be subject to antitrust condemnation—including exposure to treble damages—based
solely on the creativity of antitrust lawyers imagining

34
marginally less restrictive approaches.” Br. for Antitrust Scholars in Support of Appellant at 15, O’Bannon v. NCAA, 802 F.3d 1049 (9th Cir. 2015) (Nos. 1416601, 14-17068), ECF No. 17.
As these scholars continued, pointing to examples
of actual litigation:
With only a modest extrapolation from the
reasoning of the [Ninth Circuit], a court could
have decided that obstetricians really only
need 30 months of residency training to perform C-sections rather than 36, and therefore
condemned the credentialing requirements
[that required the longer residency period.] A
court likewise could have decided that * * *
five-year transportation assignments * * *
should instead have been four years. * * * The
possibilities are limited only by the imagination of the antitrust bar and the willingness of
the bench to indulge it.
Ibid. See also Hovenkamp, Antitrust Balancing, 12
N.Y.U. J. L. & Bus. 369, 377 (2016) (criticizing O’Bannon, “‘[m]etering’ small deviations [in amateurism] is
not an appropriate antitrust function”).
The factual context here illustrates this point
forcefully. Acknowledging that the plaintiffs are challenging the totality of the NCAA’s pay-for-play rules,
the Ninth Circuit found it appropriate to identify
those rules that it thought are, and those that it
thought are not, sufficiently procompetitive. See Pet.
App. 42a (considering “the procompetitive effects
achieved by each type of challenged [NCAA] rule”).
But under such an approach, no limit ever would be
sustainable; plaintiffs always could show that a mod-

35
erate tweak in existing rules would preserve public interest in the product. (Why permit two scholarships
rather than three? If computers are provided, why not
monitors, or printers, or ink? If black ink is provided,
why not also red?) In a sort of Zeno’s paradox, plaintiffs always could advance by stages towards the complete elimination of useful and procompetitive restrictions. The joint design and marketing of products
would be subject to perpetual judicial second-guessing, resulting in uncertainty and unwarranted limits
on procompetitive joint conduct—both of which the
Court has said are disfavored by the antitrust laws.
2. In addition, proper application of the “twinkling-of-an-eye” standard also would have led to a different result here. As the Seventh Circuit has explained, NCAA rules that are “clearly meant to help
maintain the ‘revered tradition of amateurism in college sports’” should be “presumed procompetitive.” Agnew, 683 F.3d at 342-343. Absent good reason to treat
the eligibility restrictions challenged in this case as
the “rare exception to this general principle” (Deppe,
893 F.3d at 502), that should be the end of the inquiry—not, as the Ninth Circuit concluded, a prelude
to judicial red-penciling of the rules. Id. at 503. And
no such rare exception applies here: The pay-to-play
limit is the central, long-standing component of the
amateurism standard that historically has differentiated college from professional sports.
CONCLUSION
The petition for a writ of certiorari should be
granted.

36
Respectfully submitted.
BRITT M. MILLER
ANDREW S. ROSENMAN
JED W. GLICKSTEIN
Mayer Brown LLP
71 South Wacker Dr.
Chicago, IL 60606
(312) 782-0600

ANDREW J. PINCUS
Counsel of Record
CHARLES A. ROTHFELD
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
apincus@mayerbrown.com

Counsel for The Big Ten Conference, Inc.

[Additional counsel on following pages]
OCTOBER 2020

37
ROBERT W. FULLER, III
LAWRENCE C. MOORE, III
PEARLYNN G. HOUCK
ERIK R. ZIMMERMAN
Robinson, Bradshaw &
Hinson, P.A.
101 North Tryon St.,
Suite 1900
Charlotte, N.C. 28246
MARK SEIFERT
Seifert Law Firm
50 California St.,
Suite 1500
San Francisco, CA
94111

LEANE K. CAPPS
CAITLIN J. MORGAN
Polsinelli PC
2950 North Harwood
St., Suite 2100
Dallas, TX 75201
AMY D. FITTS
Polsinelli PC
900 West 48th Pl.,
Suite 900
Kansas City, MO 64112
Counsel for The Big 12
Conference, Inc. & Conference USA

BART H. WILLIAMS
SCOTT P. COOPER
KYLE A. CASAZZA
JENNIFER L. JONES
BENJAMIN C. BLOCK
SHAWN S. LEDINGHAM, JR.
Covington & Burling
Proskauer Rose LLP
LLP
2029
Century Park East,
One CityCenter
Suite 2400
850 Tenth St. N.W.
Los
Angeles, CA 90067
Washington, D.C. 20001
Counsel for the American Counsel for Pac-12
Conference
Athletic Conference
Counsel for Southeastern
Conference

38
R. TODD HUNT
BENJAMIN G. CHOJNACKI
Walter Haverfield LLP
The Tower at Erieview
1301 East 9th St.,
Suite 3500
Cleveland, OH 44114
Counsel for Mid-American Conference
MERYL MACKLIN
Bryan Cave Leighton
Paisner LLP
Three Embarcadero
Center, 7th Floor
San Francisco, CA
94111
RICHARD YOUNG
BRENT E. RYCHENER
Bryan Cave Leighton
Paisner LLP
90 South Cascade Ave.,
Suite 1300
Colorado Springs, CO
80903
Counsel for Mountain
West Conference
JON BRADLEY
Bradley Devitt Haas &
Watkins, P.C
2201 Ford Street
Golden, CO 80401
Counsel for Western Athletic Conference

MARK A. CUNNINGHAM
Jones Walker LLP
201 St. Charles Ave.
50th Floor
New Orleans, LA 70170
Counsel for Sun Belt Conference
D. ERIK ALBRIGHT
GREGORY G. HOLLAND
Fox Rothschild LLP
230 North Elm St.,
Suite 1200
Greensboro, N.C. 27401
JONATHAN P. HEYL
Fox Rothschild LLP
101 North Tryon St.,
Suite 1300
Charlotte, N.C. 28246
Counsel for Atlantic
Coast Conference

